Case: 19-2197

Document: 6-1

Filed: 02/11/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: February 11, 2020

Ms. Andrea M. Christensen-Brown
Michigan Department of Attorney General
P.O. Box 30217
Lansing, MI 48909
Ms. Margaret Sind Raben
Gurewitz & Raben
333 W. Fort Street
Suite 1400
Detroit, MI 48226
Re: Case No. 19-2197, Kenneth Bluew v. Connie Horton
Originating Case No. : 2:16-cv-11992
Dear Counsel,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/C. Anthony Milton
Case Manager
Direct Dial No. 513-564-7026
cc: Mr. David J. Weaver
Enclosure
No mandate to issue

Appendix A - Pg 001

(1 of 5)

Case: 19-2197

Document: 6-2

Filed: 02/11/2020

Page: 1

No. 19-2197

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

KENNETH T. BLUEW,

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
CONNIE HORTON, Warden,
Respondent-Appellee.

Feb 11, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUTTON, Circuit Judge.

Kenneth T. Bluew, a Michigan prisoner proceeding with counsel, appeals a district court
judgment denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254.
Bluew has filed an application for a certificate of appealability.
Bluew was sentenced to life imprisonment after being convicted of first-degree
premeditated murder, assault of a pregnant individual with intent to cause miscarriage or stillbirth,
and two counts of possession of a firearm during the commission of a felony. The Michigan Court
of Appeals affirmed Bluew’s convictions, and the Michigan Supreme Court denied leave to appeal.
People v. Bluew, No. 313397, 2014 WL 3928790 (Mich. Ct. App. Aug. 12, 2014) (per curiam),
perm. app. denied, 859 N.W.2d 518 (Mich. 2015). Bluew then filed a petition for a writ of habeas
corpus, arguing that he received ineffective assistance of counsel; that the trial court erred in
denying his challenges for cause as to four prospective jurors; that the trial court erred in denying
his request for additional peremptory challenges; and that the trial court erred in denying his
motion for change of venue. The district court denied the § 2254 petition and declined to issue a
certificate of appealability. Bluew v. Woods, No. 2:16-cv-11992, 2019 WL 4416312 (E.D. Mich.
Sept. 16, 2019).

Appendix A - Pg 002

(2 of 5)

Case: 19-2197

Document: 6-2

Filed: 02/11/2020

Page: 2

No. 19-2197
-2Bluew now applies for a certificate of appealability on his claims that counsel was
ineffective for failing to call an expert witness to testify that the victim’s death could not have been
caused by a chokehold, or to call an expert in forensic pathology to challenge the autopsy report,
and that the trial court erred in denying his challenge for cause as to Juror D. Bluew has forfeited
review of the issues that he raised in the district court but did not raise in his application for a
certificate of appealability. See 28 U.S.C. § 2253(c)(3); Jackson v. United States, 45 F. App’x
382, 385 (6th Cir. 2002) (per curiam).
A certificate of appealability may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard,
the petitioner must demonstrate “that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). Where the state courts have adjudicated the petitioner’s claims on the merits, the relevant
question is whether the district court’s application of 28 U.S.C. § 2254(d) to those claims is
debatable by jurists of reason. See id. at 336-37.
Reasonable jurists would not debate the district court’s rejection of Bluew’s ineffectiveassistance claims. To prove ineffective assistance of counsel, a habeas petitioner must show that
his attorney’s performance was objectively unreasonable and that he was prejudiced as a result.
Strickland v. Washington, 466 U.S. 668, 687 (1984). In habeas proceedings, the district court must
apply a doubly deferential standard of review: “[T]he question [under § 2254(d)] is not whether
counsel’s actions were reasonable. The question is whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.” Harrington v. Richter, 562 U.S. 86, 105
(2011). The Michigan Court of Appeals rejected these claims on the merits after determining that
“although [affidavits from experts retained after trial] may raise a question as to whether the victim
died from hanging as opposed to a chokehold, they do not raise any reasonable question as to
whether [Bluew] killed the victim in light of the overwhelming evidence of guilt presented at trial.”
Bluew, 2014 WL 3928790, at *1. Specifically, there was evidence that the victim planned to meet

Appendix A - Pg 003

(3 of 5)

Case: 19-2197

Document: 6-2

Filed: 02/11/2020

Page: 3

No. 19-2197
-3with Bluew, the father of her unborn child, the night of her murder to discuss child support issues;
that the victim and Bluew exchanged phone calls shortly before her death; that Bluew, a police
officer on duty, failed to respond to numerous radio checks and other attempts to contact him
around the time of the victim’s death; that Bluew’s DNA was found under the victim’s fingernails
and in her vehicle; and that Bluew’s internet history showed several searches regarding ways to
die from carotid artery compression and how long such a death would take. Because of the
deference due to state court determinations of state law, as well as the double deference due under
Strickland and § 2254, reasonable jurists could not disagree with the district court’s rejection of
these claims. See Richter, 562 U.S. at 105.
Reasonable jurists would not debate the district court’s rejection of Bluew’s claim that the
trial court erred in denying his challenge for cause as to Juror D. The Sixth Amendment guarantees
criminal defendants the right to be tried by an impartial jury. United States v. Guzman, 450 F.3d
627, 629 (6th Cir. 2006). In determining a juror’s impartiality, “the relevant question is ‘did a
juror swear that he could set aside any opinion he might hold and decide the case on the evidence,
and should the juror’s protestation of impartiality have been believed.’” United States v. Lanham,
617 F.3d 873, 882 (6th Cir. 2010) (quoting Dennis v. Mitchell, 354 F.3d 511, 520 (6th Cir. 2003)).
A trial court’s assessment of a juror’s ability to serve impartially is a factual finding “entitled to a
presumption of correctness, rebuttable only upon a showing of clear and convincing evidence.”
Dennis, 354 F.3d at 520. Although Bluew asserts that Juror D was emotionally biased against
him, the trial court declined to dismiss her because she stated that she would do her best to be fair
and impartial to both sides despite finding the death of the unborn child deeply upsetting. Because
the state court’s factual findings are presumed correct and because Bluew has failed to offer clear
and convincing evidence rebutting the state court’s conclusion, reasonable jurists would not debate
the district court’s rejection of this claim.

Appendix A - Pg 004

(4 of 5)

Case: 19-2197

Document: 6-2

Filed: 02/11/2020

Page: 4

No. 19-2197
-4Based upon the foregoing, the court DENIES Bluew’s application for a certificate of
appealability.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Appendix A - Pg 005

(5 of 5)

